   September 4, 2003




Acquisition


The Chemical Demilitarization
Program: Increased Costs for
Stockpile and Non-Stockpile
Chemical Materiel Disposal
Programs
(D-2003-128)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AT&L                  Acquisition, Technology, and Logistics
GAO                   General Accounting Office
           Office of the Inspector General of the Department of Defense
Report No. D-2003-128                                              September 4, 2003
   (Project No. D2003AE-0070)

 The Chemical Demilitarization Program: Increased Costs for Stockpile and
          Non-Stockpile Chemical Materiel Disposal Programs


                                Executive Summary

Who Should Read This Report and Why? Policy makers and milestone decision
makers should be interested in this report because it discusses factors that continue to
affect the cost and schedule of the Chemical Stockpile Disposal Program and the need to
plan for the disposal of non-stockpile chemical materiel.

Background. This report is the third and last in a series of reports that discuss the
management of the Chemical Demilitarization Program (the Demilitarization Program).
The first report discussed the need for the Army to revise its acquisition program baseline
agreement and to obtain a documented threat assessment for the Demilitarization
Program. The second report discussed the improvements that could be made in the
oversight, the execution, and the administration of the Demilitarization Program. In
1985, the Congress directed DoD to oversee the destruction of the chemical weapons
stockpiled munitions and assigned the Army responsibility for the destruction. The Army
established the Program Manager for Chemical Demilitarization to manage the day-to-
day operations of destroying the chemical weapons. In 1992, the National Defense
Authorization Act for FY 1993 (Public Law 102-484) directed the Army to plan for
destroying U.S. non-stockpile chemical weapons. In May 2001, the Under Secretary of
Defense for Acquisition, Technology, and Logistics (AT&L) designated the
Demilitarization Program as a Major Defense Acquisition Program and assigned the
Army as the Executive Agent. The Office of the Secretary of Defense approved a life-
cycle cost estimate of $24 billion for the Demilitarization Program in September 2001.
In February 2003, the Army restructured the program’s management by assigning the
functions of the Program Manager for Chemical Demilitarization to the Program
Manager for the Elimination of Chemical Weapons for plant construction and
systemization to the Deputy Director for Plant Operations for operations and closure. The
restructuring also assigned the Director, Chemical Materials Agency to manage the
overall Demilitarization Program. Through May 2003, the Army awarded contracts
totaling $5.7 billion for the construction, systemization, operations, and closure of seven
chemical agent disposal facilities and planned two additional disposal facilities.

Results. The Director, Chemical Materials Agency had made substantial progress in
managing the cost growth for the Demilitarization Program; however, several issues
could affect the future program cost and schedule of the Chemical Stockpile Disposal
Program and the disposal of the non-stockpile chemical materiel. Specifically:

       •    The Director, Chemical Materials Agency’s ability to effectively control the
            cost estimate of the Chemical Stockpile Disposal Program continues to be
            affected by delays in obtaining State permit modifications needed for
            beginning disposal operations, monetary effects of decisions on the type of
            technology to be employed at two Assembled Chemical Weapons Assessment
           facilities, the escalation in costs and safety incidents at operational chemical
           disposal facilities, and rising cost estimates for closure of disposal facilities
           (finding A).

       •   The Product Manager for Non-Stockpile Chemical Materiel did not have
           information needed to prepare a reliable estimate of the cost and schedule to
           dispose of buried chemical warfare materiel. Direction to the environmental
           offices of the DoD Components will cause DoD Components to identify,
           schedule, and fund the disposal of buried chemical warfare materiel from
           existing and former DoD installations. Implementation of the direction will
           also result in a reliable and defendable estimate of the cost to dispose of the
           buried chemical warfare materiel for the contingent liability in Note 16 of the
           DoD financial statements (finding B).

For details of the audit results, see the Findings section of the report.

Management Comments. The Deputy Assistant to the Secretary of Defense (Chemical
Demilitarization and Threat Reduction), Office of the Assistant to the Secretary of
Defense (Nuclear and Chemical and Biological Defense Programs), responding for the
Under Secretary of Defense for Acquisition, Technology, and Logistics, suggested some
editorial changes to the report that we considered and made where deemed appropriate.
However, the Deputy Assistant did not respond to the recommendation to issue direction
to the environmental offices of the DoD Components to identify, schedule, and fund the
disposal of buried chemical warfare materiel. The Director, U.S. Army Chemical
Materials Agency concurred with the recommendation for the Product Manager for Non-
Stockpile Chemical Materiel to prepare updated cost estimates for all burial sites. In
response to the final report, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics comment on the need to address planning for the
disposal of buried chemical warfare materiel by October 6, 2003.




                                               ii
Table of Contents
Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Findings
     A. Key Factors Continue to Affect the Cost Estimate for the Chemical
        Stockpile Disposal Program                                           3
     B. Disposal of Buried Chemical Warfare Materiel                        12

Appendixes
     A. Scope and Methodology                                               17
     B. Prior Coverage                                                      20
     C. Management Roles Within the Chemical Demilitarization Program       22
     D. Environmental Restoration Programs for Chemical Warfare Materiel
        Burial Sites                                                        24
     E. Report Distribution                                                 26

Management Comments
     Department of the Army                                                 29
Background
    This report is the third and last in a series of reports that address the management of the
    Chemical Demilitarization Program (the Demilitarization Program). The first report
    discussed the need for the Army to revise its acquisition program baseline agreement and
    to obtain a documented threat assessment for the Demilitarization Program. The second
    report discussed improvements that could be made in the oversight, the execution, and
    the administration of the Demilitarization Program. This report discusses the key factors
    that continue to affect the cost and schedule of the Chemical Stockpile Disposal Program
    and the need to plan for the disposal of buried chemical warfare materiel. The mission of
    the Demilitarization Program is to develop and operate facilities that destroy chemical
    munitions through incineration and other approved alternative destruction technologies.

    Program History. In 1985, Congress compelled the DoD to establish the
    Demilitarization Program. Specifically, due to congressional concerns for the stockpile’s
    deterioration, section 1521, title 50, United States Code, “Destruction of Existing
    Stockpile of Lethal Chemical Agents and Munitions,” (Public Law 99-145), directed
    DoD to oversee the destruction of the stockpile of lethal chemical agents and munitions.
    The Congress, as part of the same legislation, designated the Army as the Military
    Department responsible for the destruction of the stockpile. Later in 1985, the Army
    assigned the Program Manager for Chemical Demilitarization to manage the day-to-day
    operations of destroying the chemical munitions. In 1992, the National Defense
    Authorization Act for FY 1993 (Public Law 102-484) directed the Army to plan for
    destroying U.S. non-stockpile chemical weapons. In May 2001, the Under Secretary of
    Defense (AT&L) designated the Demilitarization Program as a Major Defense
    Acquisition Program (Acquisition Category ID), with the Army as the Executive Agent.
    In May 2002, the Under Secretary of Defense (AT&L) certified to Congress, pursuant to
    section 2433, title 10, United States Code, “Unit Cost Reports,” (Public Law 99-500),
    that the Demilitarization Program was essential to national security, that no alternatives
    existed to the program, that new cost estimates were reasonable, and that management
    was adequate to control program costs.

    Program Management and Status. The Assistant to the Secretary of Defense (Nuclear
    and Chemical and Biological Defense Programs) oversees the efforts of the
    Demilitarization Program for the Under Secretary of Defense (AT&L). The Assistant
    Secretary of the Army (Acquisition, Logistics, and Technology) oversees planning,
    programming, and budgeting for the Demilitarization Program. The Commanding
    General, Army Materiel Command oversees the chemical disposal operations and
    emergency preparedness. The Demilitarization Program consists of five individual
    programs: Chemical Stockpile Disposal, Non-Stockpile Chemical Materiel, Alternative
    Technologies and Approaches, Chemical Stockpile Emergency Preparedness, and
    Assembled Chemical Weapons Assessment.

    In February 2003, the Army restructured the program’s management by establishing the
    Director, Chemical Materials Agency to manage the overall Demilitarization Program
    and assigning the functions that the Program Manager for Chemical Demilitarization
    performed on plant construction and systemization to the Program Manager for the
    Elimination of Chemical Weapons and operations and closure to the Deputy Director for
    Plant Operations. The Project Managers for the Chemical Stockpile Disposal, the
    Alternative Technologies and Approaches, and the Non-Stockpile Chemical Materiel

                                            1
    report to the Program Manager for the Elimination of Chemical Weapons. The Project
    Manager for Chemical Stockpile Emergency Preparedness reports to the Deputy for Plant
    Operations, Office of the Director, Chemical Materials Agency, and the Program
    Manager for Assembled Chemical Weapons Assessment reports to the Under Secretary
    of Defense (AT&L). The mission of the Chemical Stockpile Disposal Project is to
    destroy the U.S. stockpile of unitary chemical agents and munitions. The missions of the
    Alternative Technologies and Approaches Project and the Chemical Stockpile
    Emergency Preparedness Program support the Chemical Stockpile Disposal Project and
    the Non-Stockpile Chemical Materiel Product through examining and demonstrating
    alternative destruction technologies and enhancing protection of the public, the workers,
    and the environment, respectively. The Assembled Chemical Weapons Assessment
    Program has the mission to validate, demonstrate, and implement alternative destruction
    technologies for assembled chemical weapons at Pueblo, Colorado, and Blue Grass,
    Kentucky. The mission of the Non-Stockpile Chemical Materiel Product is to destroy all
    binary chemical munitions, former chemical weapon production facilities, recovered
    chemical warfare materiel, and miscellaneous warfare materiel. Appendix C describes
    the existing management roles and the revised management roles within the
    Demilitarization Program in more detail.

    Program Cost Estimates and Contract Awards. In September 2001, the Under
    Secretary of Defense (AT&L) approved a cost estimate prepared by the Cost Analysis
    Improvement Group, Office of the Secretary of Defense, which increased the total
    estimated program cost to $24 billion. Through May 2003, the Army awarded contracts
    totaling $5.7 billion for seven chemical agent disposal facilities. Specifically, the U. S.
    Army Corps of Engineers awarded contracts for the construction, systemization,
    operations, and closure of disposal facilities at Johnston Island, Hawaii, and Tooele,
    Utah, the two facilities that had reached or passed the operational phase. The U.S. Joint
    Munitions Command had also awarded contracts for five other disposal facilities. The
    U.S. Joint Munitions Command also awarded contracts for the other demilitarization
    programs. DoD funds the Demilitarization Program through the Chemical Agents and
    Munitions Destruction Account, which includes Military Construction.

Objectives
    The overall objective was to evaluate the overall management of the Demilitarization
    Program and associated management controls. Specifically, we evaluated the Director’s
    efforts to contain cost growth within the Chemical Stockpile Disposal Program and DoD
    plans to destroy U.S. non-stockpile chemical weapons. Appendix A discusses the results
    of the review of management controls and the scope and methodology of the review.
    Appendix B identifies prior audit coverage of the Demilitarization Program.




                                             2
            A. Key Factors Continue to Affect the Cost
               Estimate for the Chemical Stockpile
               Disposal Program
            Many key factors continue to affect the Director, Chemical Materials Agency’s
            (the Director) ability to effectively control costs for the Chemical Stockpile
            Disposal Program. Specifically, the Director has been affected by costly delays in
            reaching public consensus when obtaining State permit modifications needed to
            begin disposal operations, monetary effects of decisions on the type of technology
            to be employed at two Assembled Chemical Weapons Assessment facilities, the
            cost escalation and safety incidents at operational chemical disposal facilities, and
            rising cost estimates for closure of disposal facilities. These conditions exist
            because the Chemical Demilitarization Program (the Demilitarization Program) is
            a very large and complex program influenced by several offices within and
            outside of the Department of Defense. As a result, the Army will continue to
            experience cost growth in funds needed to complete Demilitarization Program
            requirements. This program cost growth may also lead to additional program
            baseline cost breaches that will require the Under Secretary of Defense (AT&L)
            to again certify the program’s cost and schedule to the Congress.

Earlier Audit Reports on Factors Affecting Program Costs
     The General Accounting Office (GAO) has previously reported on issues affecting the
     Demilitarization Program’s cost and schedule. In Report No. NSIAD 97-18, “Chemical
     Weapons and Materiel: Key Factors Affecting Disposal Costs and Schedule,”
     February 10, 1997, GAO reported that key factors affecting the program’s cost and
     schedule included public concerns over the safety of incineration, legislative
     requirements, the introduction of alternative disposal technologies, and compliance with
     environmental laws and regulations.

     Safety of Incineration Facilities. In 1988, the public voiced concern over the Army’s
     decision to use on-site incineration to dispose of the chemical warfare materiel. The
     Congress responded to those concerns by directing the Army, through legislative
     requirements, to assess and report on potential alternative technologies to incineration

     Legislative Requirements. Since 1985, when the Congress directed the Army to destroy
     the U.S. stockpile of chemical materiel, other legislative requirements that limited
     disposal options have affected the Army’s ability to control the program’s cost and
     schedule. The program limitations made by the Congress included “The National
     Defense Authorization Act for Fiscal Year 1991” (Public Law 101-510), which restricted
     DoD from using funds to transport chemical weapons to Johnston Atoll except for U.S.
     munitions discovered in the Pacific, and also restricted DoD from studying the movement
     of chemical munitions. Additionally, “The National Defense Authorization Act for
     Fiscal Year 1993” (Public Law 102-484) directed the Army to study alternatives to
     incineration.

     Alternative Disposal Technologies. In November 1991, because of public concern and
     congressional direction, the Army requested the National Research Council to evaluate
     potential technological alternatives to the baseline incineration process. In Public
                                             3
     Law 102-484, the Congress directed the Army to consider using the potential
     technological alternatives to incineration that were identified in the National Research
     Council’s report. As a result, in 1994, the Army initiated the Alternative Technologies
     and Approaches Project at the two bulk-only chemical stockpile sites, Aberdeen Proving
     Ground, Maryland, and Newport Chemical Activity, Indiana, to investigate, develop, and
     support testing of two technologies based on neutralization of chemical agents. In “The
     National Defense Authorization Act for Fiscal Year 1997” (Public Law 104-201), the
     Congress directed DoD to conduct an assessment of alternative technologies for the
     disposal of assembled chemical munitions. Additionally, in the 1997 Appropriations Act,
     the Congress prohibited the Army from obligating funds for constructing disposal
     facilities at Blue Grass, Kentucky, and Pueblo, Colorado, until 180 days after the
     Secretary of Defense reported on the alternative technologies.

     Compliance with Environmental Laws. Before constructing or operating a chemical
     disposal facility, the Army must obtain permits to comply with Federal, State, and local
     environmental laws and regulations. The Resource Conservation and Recovery Act
     regulates the storage, treatment, and disposal of most chemical materiel. The Act
     controls hazardous waste through a permit process that requires Government approval for
     the generation, transportation, storage, and disposal of hazardous waste. Additionally,
     the Act allows the Environmental Protection Agency to authorize individual States to
     administer and enforce hazardous waste programs. Under the Act, the States can
     establish programs that are more stringent than the Federal program. The GAO believed
     that the permit process would take more time than the Army allowed in its schedule.

     Complex Management Structure. In Report No. NSIAD 00-80, “Chemical Weapons
     Disposal: Improvements Needed in Program Accountability and Financial
     Management,” May 8, 2000, GAO stated that effective management of the
     Demilitarization Program was hindered by its complex management structure and
     ineffective coordination among program offices and State and local officials.
     Specifically, the GAO reported that several changes in the organization and structure of
     the program from 1997 through 1999, including some changes to implement legislative
     requirements, divided the management roles, responsibilities, and accountability among
     several different management levels within the DoD and the Army. As the program
     expanded beyond its original single purpose of destroying the stockpile to encompass a
     broader range of missions, to include compliance with the Chemical Weapons
     Convention, the organization and structure of the program became increasingly complex.

     GAO further reported that, at times, the several different levels within DoD and the Army
     shared oversight responsibilities, resulting in fragmented responsibilities for management
     decisions. The fragmented management affected the ability of DoD and the Army to
     present a coordinated message to State and local officials for the Blue Grass, Kentucky,
     and Pueblo, Colorado, stockpile sites. The GAO reported that the confusion at these two
     sites led to the public’s perception that the program lacked a single vision for destroying
     the chemical stockpile in a judicious manner.

Increase in the Demilitarization Program’s Cost Estimate
     In September 2001, the Under Secretary of Defense (AT&L) approved a revised cost
     estimate for the Demilitarization Program. The revised cost estimate of $24 billion was
     substantially more than the cost estimate of $15.3 billion approved in 1998. The Office

                                             4
 of the Cost Analysis Improvement Group advised that the increase was necessary to
 reflect more realistic destruction rates than had been previously estimated. Table 1 shows
 the DoD-approved program cost estimate as of September 2001.

Table 1. Approved Cost Estimate for the Demilitarization Program - September 2001


                                                                                    Estimated Cost
         Program/Facility                                                           ($ in millions)
         Chemical Stockpile Disposal Project                                            $ 3,086
          Johnston Atoll                                                                  1,830
          Tooele                                                                          2,364
          Anniston                                                                        2,298
          Pine Bluff                                                                      1,737
          Umatilla                                                                        2,462
           Subtotal                                                                      13,777

         Alternative Technologies and Approaches Project                                      177
          Aberdeen                                                                          1,019
          Newport                                                                           1,459
           Subtotal                                                                         2,655

         Assembled Chemical Weapons Assessment Program1                                         0
          Pueblo 2                                                                          1,784
          Blue Grass 3                                                                      2,072
           Subtotal                                                                         3,856

         Non-Stockpile Chemical Materiel Product                                            1,632

         Chemical Stockpile Emergency Preparedness Program                                  2,139

          Total                                                                         $ 24,059


 1
   Program costs for Assembled Chemical Weapons Assessment were zero because Pueblo and Blue Grass
 were part of the Chemical Stockpile Disposal Project during the September 2001 Defense Acquisition
 Board review.
 2
   The Pueblo cost estimate reflects modified baseline incineration costs and was included in costs for the
 Chemical Stockpile Disposal Project.
 3
   The Blue Grass cost estimate reflects baseline incineration costs and was included in costs for the
 Chemical Stockpile Disposal Project.

 In February 2003, the Director presented a revised program office estimate to the Army
 Cost and Economic Analysis Center and the Army Cost Review Board. The Director
 prepared the revised cost estimate to document the changes in the program since the
 September 2001 cost estimate and in support of the program objective memorandum for


                                                 5
     FY 2005. Table 2 shows the Office of the Chemical Materials Agency’s revised program
     cost estimate that was presented to the Army Cost and Economic Analysis Center and the
     Army Cost Review Board in February 2003.

 Table 2. Recommended Cost Estimate for the Demilitarization Program - February 2003

                                                                                  Estimated Cost
          Program/Facility                                                        ($ in millions)
          Chemical Stockpile Disposal Project                                        $ 2,907
           Johnston Atoll                                                               1,761
           Tooele                                                                       2,395
           Anniston                                                                     2,426
           Pine Bluff                                                                   1,974
           Umatilla                                                                     2,757
            Subtotal                                                                   14,220

          Alternative Technologies and Approaches Project                                 147
           Aberdeen                                                                       850
           Newport                                                                      1,220
            Subtotal                                                                    2,217

          Assembled Chemical Weapons Assessment Program1                                  354
           Pueblo                                                                       1,537
           Blue Grass                                                                   2,396
            Subtotal                                                                    4,287

          Non-Stockpile Chemical Materiel Product                                       1,586

          Chemical Stockpile Emergency Preparedness Program                             2,809

            Total                                                                    $ 25,119

     1
      The Assembled Chemical Weapons Assessment cost estimate was not presented to the Army Cost and
     Economic Analysis Center or the Cost Review Board for review.

Factors Affecting Program Costs Continue
     Despite Army efforts to contain the cost growth of the Demilitarization Program, factors
     similar to those previously reported by the GAO continue to affect the ability of the
     Director, Chemical Materials Agency to effectively control program costs. Specifically,
     the Director has been affected by costly delays in reaching public consensus with
     obtaining State permit modifications needed for beginning disposal operations, the
     decisions on the type of technology to be employed at two Assembled Chemical
     Weapons Assessment facilities, the escalation of costs and safety incidents at operational
     chemical disposal facilities, and rising cost estimates for closure of disposal facilities.


                                                 6
           Environmental Permits. The Director, Chemical Materials Agency needs to receive
           public agreement from the involved States when an environmental permit modification is
           required before the Army will approve the start of disposal operations. The process of
           receiving public agreement with the environmental permit process continues to be a
           major roadblock in containing costs. To illustrate, the chemical disposal facility in
           Anniston, Alabama, completed surrogate (agent trial) testing in January 2003 and was
           approved, subject to obtaining the State environmental permit modification, for an agent
           trial burn plan to begin disposal operations. Because State and local officials disagreed
           with DoD and Army officials on the level of preparedness needed by residents
           surrounding the facility, the State of Alabama refused to approve the environmental
           permit modification, which delayed the start of full disposal operations. According to the
           Office of the Chemical Stockpile Emergency Preparedness Program, local officials from
           Calhoun County, Alabama, remain dissatisfied with the level of emergency preparedness
           provided to residents in the area immediately surrounding the disposal facility. To
           overcome this dissatisfaction, the State of Alabama requested that the Army provide an
           additional $26.9 million in FY 2003 to over-pressurize county schools and fully
           implement a plan to provide shelters in-place for the local residents identified with
           having special needs. In FY 2002, the Under Secretary of Defense (AT&L) approved
           and the Army provided to the Federal Emergency Management Agency funding to satisfy
           a State of Alabama request to provide Calhoun County with $40.5 million in FY 2002 to
           provide the local residents with escape hoods and updated emergency radios. In
           August 2003, the Army started limited operations during night and weekend hours to
           destroy M-55 rockets filled with nerve agent. However, until the schools can be over-
           pressurized and the special needs for some local residents can be met with the additional
           $26.9 million in funding, the State of Alabama’s environmental office will not agree with
           the Army’s plan to begin full facility disposal operations. In the meantime, the Anniston
           disposal facility is fully staffed and ready for full operation. The Director, Chemical
           Materials Agency, in preparing the program cost estimate, estimates that operation and
           disposal costs are approximately $287,0001 a day, regardless of whether or not the
           facility is operational. Delays in receiving timely public agreement to obtaining State
           environmental permit modifications for other chemical agent disposal facilities could
           further affect estimated program costs.

           Recent Technology Decisions for Assembled Chemical Weapons Assessment
           Programs. The “National Defense Appropriations Act for Fiscal Year 1997,”
           September 10, 1996 (Public Law 104-208), established the Assembled Chemical
           Weapons Assessment Program as a separate and distinct program under the
           Demilitarization Program to research alternative chemical munitions destruction
           technology for the planned chemical disposal programs at Pueblo, Colorado, and Blue
           Grass, Kentucky. The Under Secretary of Defense (AT&L) recently made decisions on
           the type of technology that will be used at the two disposal sites. In July 2002, the Under
           Secretary of Defense (AT&L) approved neutralization followed by biological treatment2
           as the technology to dispose of chemical weapons at Pueblo, Colorado. In February
           2003, the Under Secretary of Defense (AT&L) approved neutralization followed by
           supercritical water oxidation as the technology to pilot test for the disposal of chemical
           weapons at Blue Grass, Kentucky.

1
    The daily cost of $287,000 is a rough order magnitude amount that the Program Manager estimated by dividing the
    total annual chemical disposal facility contract for Anniston by 365 days.
2
    The process of mixing hot water with the chemical agent to a point where it is broken down into other chemical
    components that can be further treated with bacteria.

                                                           7
           At the time that the September 2001 program cost estimate was prepared, the Director,
           Chemical Materials Agency based the cost estimate for the Pueblo and Blue Grass
           disposal facilities on the Army’s Chemical Materials Agency employing the incineration
           technology. In June 2002 and November 2002, respectively, the Assembled Chemical
           Weapons Assessment Program Manager submitted the cost estimate for the Pueblo and
           Blue Grass disposal facilities based on preliminary disposal facility designs to the Cost
           Analysis Improvement Group for review and approval. Consequently, the Office of the
           Cost Analysis Improvement Group assessed the program estimate and provided a
           revision to the cost estimates for the two disposal facilities. However, the full cost may
           escalate once the contractors complete the final disposal facility designs.

           Contractor Costs. The Director, Chemical Materials Agency has contracts with
           contractors at eight of the nine chemical disposal facilities to design and construct the
           facilities, as well as operate the facilities once they are operational. Contractors involved
           in the design, construction, and operation of disposal facilities have also experienced
           increased program costs.

                  Facility Development. Costs to design and construct disposal facilities have also
           deviated substantially in the past. To illustrate, in October 2001, after the September
           2001 program cost estimate was approved, the Director of Contracts issued a
           modification to the contract for the design, construction, and operation of the Newport
           Chemical Agent Disposal Facility that increased the contract value from $296 million to
           $748 million. The Director of Contracts awarded the modification because of the
           contractor’s inability to meet cost and schedule goals. Since the modification’s award,
           the Under Secretary of Defense (AT&L) approved a plan to accelerate the facility’s
           disposal schedule that decreased the contract scope from $748 million to $584 million.

                   Operation. Chemical agent exposure incidents at the chemical disposal facilities
           during disposal operations can also significantly affect future program costs. On
           July 15, 2002, a chemical agent exposure incident occurred at the Tooele Chemical Agent
           Disposal Facility in Utah. As a result, the Army postponed disposal operations until the
           contractor completed corrective actions identified by an Army investigation team and the
           State of Utah agreed that it is safe to restart disposal operations. The operations and
           maintenance costs for the Tooele, Utah, disposal facility is estimated to cost $336,0003 a
           day, regardless of whether or not the facility is operating. On March 28, 2003, the
           Tooele, Utah disposal facility restarted disposal operations. As of March 27, 2003,
           disposal operations at the Tooele facility had been idle for 256 days, at a program cost of
           approximately $86 million.

           Disposal Facility Closure Cost Estimates. Cost estimates for closure of disposal
           facilities at the completion of facility operations had not been fully established. Facility
           closure costs include the management, expertise, and labor to decommission and close
           the facilities in accordance with applicable laws and regulations. Closure of the disposal
           facilities commences at the completion of chemical disposal operations and ends when
           the contractor fulfills State requirements. The Program Manager for Chemical
           Demilitarization, in the 1998 cost estimate, planned for 12 months to close each disposal
           facility. In the September 2001 cost estimate, the Director considered additional costs to
           close each planned facility but the closure costs still had not been fully defined. Closure

3
    The daily cost of $336,000 is a rough order magnitude amount that the Program Manager estimated by dividing the
    total annual chemical disposal facility contract at the Tooele facility by 365 days.

                                                         8
     costs at the Johnston Atoll Chemical Agent Disposal System, for example, were initially
     estimated to be $158 million over a period of 12 months. In the September 2001 cost
     estimate the Cost Analysis Improvement Group revised the estimated cost and schedule
     to $411 million over 33 months. Through April 2003, the contractor incurred costs of
     $262 million over 25 months but, because of funding reductions, will not meet the
     estimated 33-month schedule to complete closure of the facility.

     The Director and the Assembled Chemical Weapons Assessments Program Manager
     indicated that they would negotiate closure requirements for each disposal facility with
     State environmental offices based on lessons learned from closure activities at the
     Johnston Atoll Chemical Agent Disposal System. Accordingly, the reasonableness of
     estimated facility closure costs included in the September 2001 program cost estimate is
     subject to revision, based on the lessons learned from the Johnston Atoll facility and
     negotiations with each State environmental office on facility closure requirements.

Influences on the Chemical Demilitarization Program
     The Demilitarization Program is a very large and complex program that has been
     influenced by several offices within and outside the Department of Defense. Many of the
     issues affecting the program cost and schedule have resulted from the complex program
     structure and coordination requirements affecting the program management. The primary
     offices that affect the program’s cost and schedule are State and local Governments,
     special interest groups that challenge the Army’s technology decisions, and the complex
     management structure within DoD that makes key program decisions.

     State and Local Governments. State and local Governments play a key role in public
     officials’ opinions and can affect the timeliness of permit decisions. Before granting
     required major modifications to existing permits, the State environmental regulatory
     agency typically seeks the general public's input. Public comments can include such
     issues as the off site emergency preparedness for the communities. In the case of the
     Anniston, Alabama disposal facility, the surrounding local officials have asserted that the
     off-site emergency preparedness was not adequate to support the start of operations.
     Because of State and local concerns and start up requirements articulated by Senator
     Richard Shelby concerning off-site emergency preparedness addressed in the Chemical
     Stockpile Emergency Preparedness Project, the Alabama Department of Environmental
     Management is still evaluating the public input associated with these plans. The
     representative from the Chemical Stockpile Emergency Preparedness Program stated that
     coordination with other State and local government officials could potentially result in
     similar operational delays for other chemical agent disposal facilities.

     Special Interest Groups. Special interest groups also influence program functions and
     could eventually affect the program’s cost and schedule. One lawsuit filed in Umatilla,
     Oregon, by a special interest coalition alleges that the issuance of the Umatilla Chemical
     Agent Disposal Facility permit on the basis of the findings and conclusions of the Oregon
     Department of Environmental Quality were not supported by substantial evidence or the
     State environmental office failed to comply with State and Federal requirements. The
     special interest coalition includes the Group Against Social Predation, a Hermiston-based
     opposition group affiliated with the Chemical Weapons Working Group, the Sierra Club,
     and 22 individual petitioners. In December 2002, the Director reported to the Under
     Secretary of Defense (AT&L) that the court trial could potentially delay the start of
     disposal operations at the Umatilla facility by as much as 3 years if the judge ruled in
                                             9
           favor of the group. The Chemical Weapons Working Group and the Sierra Club were
           also responsible for making similar allegations at other disposal facilities.

           Management Structure. The complex management structure that oversees the
           Demilitarization Program could also affect the program cost and schedule. As noted in
           the GAO reports, the complex program structure had hindered program management.
           The issue noted by GAO still exists as management and oversight of the Demilitarization
           Program is still evolving. Specifically, in February 2003, after the chemical exposure
           incident at the Tooele, Utah, disposal facility, the Army restructured the management of
           the Demilitarization Program to align acquisition oversight, previously under the
           Assistant Secretary of the Army (Installations and Environment), under the Assistant
           Secretary of the Army (Acquisition, Logistics, and Technology). At the same time, the
           Army placed the management of the operation of the chemical disposal facilities,
           previously under the Program Manager for Chemical Demilitarization, under the
           Commanding General, Army Materiel Command. The Army believes that the
           realignment of functions and responsibilities will provide better oversight of the program
           acquisition process and of the contractors’ chemical surety management4 at the
           Government-owned disposal facilities.

Conclusion
           Future cost growth of the Demilitarization Program seems likely. As a result, the Army
           will continue to experience cost growth in funds needed to complete Demilitarization
           Program requirements. This program cost growth may also lead to additional program
           baseline cost breaches that will require the Under Secretary of Defense (AT&L) to
           recertify the program’s cost and schedule to the Congress.

Management Comments on the Finding and Audit Response
           The detailed responses to the comments from the Acting Deputy Assistant Secretary of
           the Army for the Elimination of Chemical Weapons, Office of the Assistant Secretary of
           the Army (Acquisition, Logistics, and Technology) follow. The Acting Deputy Assistant
           Secretary commented on the draft report’s discussion on estimating the cost and schedule
           for disposal facility closure and additional funding for emergency preparedness in the
           State of Alabama. The complete text of those comments is in the Management
           Comments section of this report.

           Disposal Facility Closure Cost and Schedule Estimates. The Acting Deputy Assistant
           Secretary recommended that we reexamine statements made about disposal facility
           closure costs. The Acting Deputy stated that cost estimates for the closure of
           incineration-based disposal facilities are not expected to negatively affect future program
           cost estimates because the 33-month duration, $411 million closure cost, estimated in
           September 2001 for the Johnston Island, Hawaii, disposal facility, will be accomplished
           in 31 months and cost $365 million.

           Audit Response. The Director, U.S. Army Chemical Materials Agency did successfully
           close the Johnston Island, Hawaii, disposal facility earlier and at a lower cost than had

4
    Oversight of the chemical disposal facility operations includes testing, maintenance, and safety.

                                                            10
been planned in September 2001. Closure costs, however, will continue to be a key
factor that affects the program life cycle costs until each State environmental office with
a disposal facility site identifies its specific facility closure requirements. Until the State
environmental offices identify their closure requirements, the Program Manager cannot
make definitive estimates of the closure costs and the schedule for each of the disposal
sites.

State of Alabama Emergency Preparedness Funding. The Acting Deputy Assistant
Secretary stated that the Army provided the additional FY 2003 funding for collective
protection and special population requirements identified by the State of Alabama.

Audit Response. We revised the report to acknowledge that the Army had provided the
additional funds to satisfy the State of Alabama’s request.




                                           11
                        B. Disposal of Buried Chemical Warfare
                           Materiel
                        The Product Manager for Non-Stockpile Chemical Materiel did not have
                        information needed to prepare a reliable estimate of the cost and schedule to
                        dispose of buried chemical warfare materiel. This condition occurred because
                        the Under Secretary of Defense (AT&L) had not directed the DoD
                        Components to identify, schedule, and fund the disposal of buried chemical
                        warfare materiel from existing and former DoD installations. As a result, the
                        Product Manager for Non-Stockpile Chemical Materiel was unable to fully
                        satisfy the congressional direction to provide an actionable plan for disposal
                        of all non-stockpile chemical warfare materiel. Also, without an actionable
                        plan, the Under Secretary of Defense (AT&L) cannot inform the Congress and
                        the public of the realistic costs and the planned schedule to dispose of buried
                        chemical warfare materiel. Furthermore, the Product Manager cannot replace
                        the $8.9 billion contingent liability, which was prepared as a rough order
                        magnitude estimate in Note 16 of the DoD financial statements, with a reliable
                        and defendable estimate of the cost to dispose of the buried chemical warfare
                        materiel.

Policy on Non-Stockpile Chemical Materiel Disposal
           Public Law 102-484. In the National Defense Authorization Act for Fiscal Year 1993,
           section 176, “Report on Destruction of Non-Stockpile Chemical Materiel,” (Public Law
           102-484), Congress directed the Secretary of the Army to submit a report not later than
           February 1, 1993, that provided a plan for the remediation5 of all chemical warfare
           material of the United States not covered by section 1521, title 50, United States Code,
           “Destruction of Existing Stockpile of Lethal Chemical Agents and Munitions,” (Public
           Law 99-145). The Congress further directed that the report identify the locations, types,
           and quantities of non-stockpile chemical materiel, explain the methods to be used for
           their disposal, provide the estimated cost and schedule for their disposal, and discuss
           transportation alternatives.
           Defense Environmental Restoration Program. The “Management Guidance for the
           Defense Environmental Restoration Program,” September 2001, states that goals of the
           Defense Environmental Restoration Program include the identification, investigation,
           research and development, and cleanup of contamination from hazardous substances,
           pollutants, and contaminants, and the correction of other environmental damage (such as
           detection and disposal of unexploded ordnance) that creates an imminent and substantial
           endangerment to the public health or welfare or to the environment.

           Army Policy. Army Regulation 200-1, “Environmental Protection and Enhancement,”
           February 21, 1997, implements the Army strategy to restore previously contaminated
           sites that pose a threat to human health and the environment. Through the Regulation,
           the Army provides policy for the Army’s Environmental Restoration Programs, including
           the Installation Restoration Program for real property that is controlled by the active

5
    According to the Environmental Planning and Assessment Act of 1979, remediation is defined as removing,
    dispersing, destroying, reducing, mitigating or containing the contamination of any land.

                                                         12
           Army installations; formerly used defense sites including real property that was owned
           by, leased to, possessed by, or otherwise under the operational control of the Secretary of
           Defense or other Military Components that predated the Department of Defense; and the
           Base Realignment and Closure Program.

           Financial Management Regulation. DoD Regulation 7000.14-R, “DoD Financial
           Management Regulation,” Volume 4, Chapter 12, November 1999, states that
           contingencies are existing conditions, situations, or circumstances involving uncertainty
           as to possible gain or loss to an entity. A loss contingency exists when the likelihood that
           the future event or events will confirm the loss or impairment of an asset or the
           incurrence of a liability can be classified as probable, reasonably possible, or remote.
           Contingent liabilities should be recorded in DoD financial systems and reported in
           financial statements when a future outflow or other sacrifice of resources is probable or
           measurable, and disclosure is necessary if the financial statements would otherwise be
           misleading.

Estimated Cost to Dispose of Buried Chemical Warfare Materiel
           GAO Report No. NSIAD 97-18, “Chemical Weapons and Materiel: Key Factors
           Affecting Disposal Costs and Schedule,” February 10, 1997, reported that the
           Non-Stockpile Chemical Materiel Product would need $14.5 billion to dispose of all
           buried chemical warfare materiel, which was 95 percent of the total Non-Stockpile
           Program cost estimate of $15.2 billion. According to a representative from the Non-
           Stockpile Product Office, discussions above the Department of the Army level resulted in
           excluding the disposal of buried chemical warfare materiel from the Demilitarization
           Program because costs were high. Accordingly, the February 2003, cost estimate for the
           Non-Stockpile Chemical Materiel Product included only $1.586 billion to dispose of
           non-stockpile chemical warfare materiel declared under the Chemical Weapons
           Convention and to continue research, development, and testing of non-stockpile chemical
           warfare disposal technologies. To meet the congressional requirement to plan for the
           disposal of the buried munitions, the Non-Stockpile Chemical Materiel Product Manager
           estimated that the mission would cost an additional $11.7 billion.6

Implementation of Actions to Dispose of Buried Chemical Warfare
  Materiel
           The Product Manager for Non-Stockpile Chemical Materiel did not have information
           needed to prepare a reliable estimate of the costs and schedule to dispose of buried
           chemical warfare materiel with DoD activities. A key piece of information necessary is a
           preliminary assessment of the intended use of the installations to determine the extent
           that the DoD will go through remediation. As discussed below, environmental
           restoration programs have been established, remediation efforts have begun, yet


6
    The $11.7 billion estimate was based on the rough order magnitude estimate developed in 1993; refined in 1996
    using the most up-to-date information on burial site characterization, destruction technology decisions, and
    remediation and treatment procedures; and adjusted in 2002 using inflation indexes. The $11.7 billion estimate is
    in current year dollars and is equivalent to the $8.9 billion estimate reported in Note 16 of the financial statements,
    which is in base year dollars.

                                                             13
additional action needs to be taken to identify, schedule, and fund the disposal of
recovered buried chemical warfare materiel from existing and former DoD installations.

Environmental Restoration Programs. The “Survey and Analysis Report, Second
Edition,” December 1996, states that the continental United States, the U.S. Virgin
Islands, and the District of Columbia contain 224 installations where chemical warfare
materiel may be buried. Preliminary analysis in the report stated that 56 of the
224 installations (25 percent) may require no further action and 168 of the
224 installations (75 percent) may require remediation. The Army established
environmental restoration programs to evaluate the need and execute the removal of the
chemical warfare materiel from those burial sites. The 224 installations include active,
formerly used defense sites, and base realignment and closure sites. See Appendix D for
more information regarding the environmental restoration programs and Army roles and
responsibilities within each program.

Implementation of Remediation Efforts. The Under Secretary of Defense (AT&L) had
not issued direction requiring the DoD Components to develop and prioritize a
destruction schedule for remediation at all chemical warfare material burial sites. As
Executive Agent, the Secretary of the Army did assign responsibility for the cleanup of
formerly used defense sites under the Defense Environmental Restoration Program to the
U.S. Army Corps of Engineers (Army Corps). The Army Corps stated that the process
for cleaning up the formerly used sites where chemical warfare materiel may be located
was in its initial phase. Specifically, the Army Corps was performing site surveys to
determine the scope and magnitude of seven burial sites. The Army Corps plans to report
the results of their survey to the Assistant Secretary of the Army (Environment Safety
and Occupational Health) by September 2004. Although the Army Corps will address
the formerly used defense sites, the Under Secretary of Defense (AT&L) had not tasked
the other DoD Components to perform a similar assessment for sites located on active
installations and base realignment and closure installations previously identified.
Actions Needed. During the review, a representative from the Office of the Deputy
Under Secretary of Defense (Installations and Environment) agreed that the DoD needed
to establish top-level direction to:
    • schedule the remediation of all potential chemical warfare materiel burial sites;
        and,

   •   assign DoD Components with responsibility for prioritizing a schedule for
       surveying and excavating the sites that potentially have buried chemical warfare
       materiel.

A destruction schedule that prioritizes the remediation of chemical warfare material
burial sites needs to be established so that the DoD Components will plan and estimate
costs for excavation, removal, destruction, and treatment procedures for each burial site.
Because the Under Secretary of Defense (AT&L) had not issued direction to the DoD
Components, the Product Manager for Non-Stockpile Chemical Materiel has not been
able to fully identify the funding requirements needed to satisfy the Congressional
direction to plan for the disposal of all chemical warfare materiel. Additionally, the
Under Secretary of Defense (AT&L) cannot make the Congress and the public timely
aware of the costs and schedules to dispose of buried chemical warfare materiel.
Furthermore, the Product Manager cannot replace the $8.9 billion contingent liability,


                                         14
    which was prepared as a rough order magnitude estimate in Note 16 of the DoD financial
    statements, with a reliable and defendable estimate of the cost to dispose of the buried
    chemical warfare materiel.

Management Comments on the Finding and Audit Response
    The detailed responses on the comments from the Acting Deputy Assistant Secretary of
    the Army for the Elimination of Chemical Weapons, Office of the Assistant Secretary of
    the Army (Acquisition, Logistics, and Technology) responding for the Director, U.S.
    Army Chemical Materials Agency follow. The Acting Deputy Assistant Secretary
    commented on the draft report’s statement on the cost estimate for the disposal of buried
    munitions. The complete text of those comments is in the Management Comments
    section of this report.

    The Cost Estimate for Buried Chemical Warfare Materiel. The Acting Deputy
    Assistant Secretary commented on the $11.7 billion cost estimate for disposal of buried
    chemical warfare materiel. The Acting Deputy stated that the estimate had not been
    updated since 1996 except for an adjustment in the inflation indices. The Acting Deputy
    stated a new cost estimate using current remediation, treatment procedures, technology,
    site information, and environmental standards will significantly increase the cost
    estimate.

    Audit Response. We agree with the Acting Deputy Assistant Secretary’s comments.

Recommendations, Management Comments, and Audit Response
    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics issue direction to the environmental offices of the DoD
    Components to identify, schedule, and fund the disposal of buried chemical warfare
    materiel from active installations and base realignment and closure installations
    previously identified.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not respond to the recommendation. In response to the
    final report, we request that the Under Secretary comment on the need to issue direction
    to identify, schedule, and fund the disposal of buried chemical warfare materiel from
    active installations and base and realignment and closure installations previously
    identified.

    B.2. We recommend that the Product Manager for Non-Stockpile Chemical
    Materiel update the plan and cost estimate for disposal of buried munitions after the
    environmental offices of the DoD Components implement Recommendation B.1.

    Acting Deputy Assistant Secretary of the Army for the Elimination of Chemical
    Weapons and Director, U.S. Army Chemical Materials Agency Comments. The U.S.
    Army Chemical Materials Agency concurred, stating that the Product Manager for Non-
    Stockpile Chemical Materiel is preparing cost estimates for four potential base and
    realignment and closure installations and is prepared to update the estimates for all burial


                                             15
sites. Further, during the fourth quarter of FY 2003, the Product Manager will meet with
representatives from the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics to discuss burials and the path forward.

The Acting Deputy nonconcurred with Recommendation B.2. as written, stating that the
Product Manager should participate as a subject-matter expert in updating the cost
estimates for known and recovered chemical warfare materiel. The Acting Deputy
further stated that the Product Manager was not assigned the mission of planning future
remediation activities, nor is the mission included in the Chemical Agent Munitions
Destruction appropriations funding level.

Audit Response. The actions taken by the Director, U.S. Army Chemical Materials
Agency are responsive to the recommendation. We commend the Product Manager for
Non-Stockpile Chemical Materiel for being proactive in planning for the remediation of
buried chemical warfare materiel.




                                       16
Appendix A. Scope and Methodology
   In this third and final report addressing the Chemical Demilitarization Program (the
   Demilitarization Program) we evaluated reasons for the continuing cost growth within the
   Demilitarization Program and DoD plans and actions to dispose of buried chemical
   warfare materiel. As a result, we focused on factors affecting Demilitarization Program
   cost and schedule and DoD efforts to dispose of buried munitions. We performed this
   audit from January 2003 through May 2003 in accordance with generally accepted
   government auditing standards.

   To evaluate whether the Office of the Secretary of Defense and the Army were
   effectively managing the Demilitarization Program, we examined “National Defense
   Authorization Act of 1993,” (Public Law 102-484); section 8065, title 6, United States
   Code, “Defense Authorization Act for Fiscal Year 1997,” (Public Law 104-208;
   section 1521, title 50, United States Code, “Destruction of Existing Stockpile of Lethal
   Chemical Agents and Munitions,” (Public Law 99-145); the “Strom Thurmond National
   Defense Authorization Act for Fiscal Year 1999,” (Public Law 105-261; and Army
   Regulation 200-1, “Environmental Protection and Enhancement,” February 21, 1997.

   We reviewed documentation dated from August 1994 through March 2003 that we
   obtained from the Demilitarization Program Office; disposal facilities located at
   Aberdeen, Maryland, Tooele, Utah, Anniston, Alabama, Umatilla, Oregon, Pine Bluff,
   Arkansas, and Newport, Indiana; future disposal facilities at Pueblo, Colorado, and Blue
   Grass, Kentucky; and from the Joint Munitions Command, Rock Island, Illinois.

   To accomplish the audit objectives, we took the following steps:

          •   To determine the key factors affecting program cost and schedule, we
              reviewed GAO Report No. NSIAD 97-18, “Chemical Weapons and Materiel:
              Key Factors Affecting Disposal Costs and Schedule,” February 10, 1997;
              GAO Report No. NSIAD 00-80, “Chemical Weapons Disposal:
              Improvements Needed in Program Accountability and Financial
              Management,” May 8, 2000; the current approved program baseline for the
              Demilitarization Program; the Budget Estimate Submission for
              FYs 2004 and 2005; Program Budget Decision 204, “Chemical Agents and
              Munitions Destruction,” December 9, 2002; and cost and schedule data.
              Additionally, we interviewed representatives from the Director, Chemical
              Materials Agency’s staff including the Project Managers for Chemical
              Stockpile Disposal and Chemical Stockpile Emergency Preparedness, the
              Product Manager for Non-Stockpile Chemical Materiel, and the Program
              Manager for Assembled Chemical Weapons Assessment. Also, we met with
              representatives from the Army Cost and Economic Analysis Center and the
              Cost Analysis Improvement Group.

          •   To determine the efforts planned to dispose of buried munitions, we reviewed
              Army Regulation 200-1, “Environmental Protection and Enhancement,”
              February 21, 1997, “Management Guidance for the Defense Environmental
              Restoration Program,” September 2001, and the non-stockpile buried
              chemical warfare materiel cost estimate as provided in a rough-order-
              magnitude cost estimate that the Product Manager for Non-Stockpile

                                           17
               Chemical Materiel prepared. Additionally, we evaluated the “National
               Defense Authorization Act for Fiscal Year 1993,” section 176, “Report on
               Destruction of Non-Stockpile Chemical Materiel,” (Public Law 102-484) to
               determine the Army’s plans for destroying chemical warfare materiel. We
               also interviewed representatives from offices of the Deputy Under Secretary
               of Defense (Installations and Environment) and the Army Corps of Engineers
               to determine their responsibilities and actions for the Defense Environmental
               Restoration Program, and the Product Manager for Non-Stockpile Chemical
               Materiel to identify those installations with chemical stockpile disposal
               facilities where remediation of potential burial sites with chemical warfare
               materiel could delay closure of the chemical stockpile disposal facilities.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the DoD
    Weapons Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance with DoD
    policy, acquisition managers are to use program cost, schedule, and performance
    parameters as control objectives to implement the requirements of DoD
    Directive 5010.38. Accordingly, we limited our review to management controls directly
    related to areas of requirements, threat assessments, program assessments, cost
    estimating, earned value management, maintenance planning and oversight, design and
    operational failure reviews, contract management, and supply support planning for the
    five programs under the Demilitarization Program that the Under Secretary of Defense
    (AT&L) established. We reviewed management’s self-evaluation applicable to those
    controls.
    Adequacy of Management Controls. In the two previous reports, we identified material
    management control weaknesses for the Demilitarization Program as defined by DoD
    Instruction 5010.40. In Inspector General, DoD Report No. D-2003-015, “A Revised
    Acquisition Program Baseline and Threat Assessment for the Chemical Demilitarization
    Program,” October 30, 2002, we identified material management control weaknesses in
    that controls were not in place to ensure that the program baseline agreement was revised
    when a significant baseline breach was reported and that a system threat assessment was
    not prepared for the program. Recommendations A. and B.2. of Report No. D-2003-015,
    if implemented, will enable the Under Secretary of Defense (AT&L) to use the baseline
    concept in managing future program cost and schedule and the depot site security
    managers to establish fully effective security plans. In Inspector General, DoD Report
    No. D-2003-088, “Acquisition of the Chemical Demilitarization Program,”
    May 12, 2003, management controls were insufficient in conducting program cost
    reviews; obtaining accurate cost and schedule information; ensuring that the contractor at
    the Tooele Chemical Agent Disposal Facility performed timely preventive maintenance;
    ensuring that facility project managers conducted effective operational failure reviews;
                                            18
and identifying initial and replenishment spares early in facility development, assigning
national stock numbers to replenishment spares needed at multiple facilities, and
establishing an obsolescence program to identify replenishment spares.
Recommendations A.1., A.2., B.1., B.2., C.1., C.2., D., E.1., E.2., and E.3. of
Report No. D-2003-088, if implemented, will improve the overall management of the
Demilitarization Program and provide information needed by acquisition decision makers
to make fully informed investment decisions. A copy of this report will be provided to
the senior official responsible for management controls in the Office of the Under
Secretary of Defense (AT&L) and the Department of the Army.

Adequacy of Management Self-Evaluation. The Director, Chemical Materials Agency
performed annual reviews of the five programs under the Demilitarization Program that
were established as assessable units to satisfy the management control requirement. The
Director based his annual statement of assurance on statements from the project
managers. However, in their self-evaluations, the project managers did not identify the
specific management control weaknesses that the audit identified in the two audit reports
because the self-evaluations did not review those areas as part of the assessable units.




                                        19
Appendix B. Prior Coverage

General Accounting Office (GAO)
    GAO Report No. 02-890, “Chemical Weapons: Lessons Learned Program Generally
    Effective but Could Be Improved and Expanded,” September 10, 2002

    GAO Report No. 01-850, “Chemical Weapons: FEMA and Army Must Be Proactive in
    Preparing States for Emergencies,” August 13, 2001

    GAO Report No. NSIAD 00-80, “Chemical Weapons Disposal: Improvements Needed
    in Program Accountability and Financial Management,” May 8, 2000

    GAO Report No. NSIAD 97-91, “Chemical Weapons Stockpile: Changes Needed in the
    Management of the Emergency Preparedness Program,” June 11, 1997

    GAO Report No. NSIAD 97-18, “Chemical Weapons and Materiel: Key Factors
    Affecting Disposal Costs and Schedule,” February 10, 1997

Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2003-088, “Acquisition of the Chemical Demilitarization
    Program,” May 12, 2003

    IG DoD Report No. D-2003-068, “Army Response to Chemical Agent Incident at Tooele
    Chemical Agent Disposal Facility,” March 28, 2003

    IG DoD Report No. D-2003-015, “A Revised Acquisition Program Baseline and Threat
    Assessment for the Chemical Demilitarization Program,” October 30, 2002

    IG DoD Report No. 99-136, “Government-Furnished Equipment Year 2000 Issues for
    Army Chemical Demilitarization,” April 16, 1999

    IG DoD Report No. 99-081 “Tooele Chemical Agent Disposal Facility Preparation for
    Year 2000,” February 9, 1999

    IG DoD Report No. 99-060, “Johnston Atoll Chemical Agent Disposal System
    Preparation for Year 2000,” December 24, 1998

    IG DoD Report No 98-051, “Chemical Event at Tooele Chemical Agent Disposal
    Facility,” January 20, 1998

Army Audit Agency
    Army Audit Agency Report No. 01-131, “Financial Management of the Chemical
    Demilitarization Program,” January 4, 2001


                                         20
Army Audit Agency Report No. 01-001, “Matrix Support Requirements for the Chemical
Demilitarization Program,” October 2, 2000

Army Audit Agency Report No. 00-346, “Engineering Change Process for the Chemical
Stockpile Disposal Project; Aberdeen Proving Ground, Maryland,” August 14, 2000

Army Audit Agency Report No. 00-205, “Military Interdepartmental Purchase Requests;
Program Manager for Chemical Demilitarization,” March 27, 2000

Army Audit Agency Report No. 99-221, “Chemical Stockpile Emergency Preparedness
Program; Aberdeen Proving Ground, Maryland,” April 16, 1999

Army Audit Agency Report No. 99-155, “Chemical Agent Inventory Controls; Aberdeen
Proving Ground, Maryland,” February 17, 1999

Army Audit Agency Report No. 99-97, “Recycling Contaminated Metal; Rock Island
Arsenal, Rock Island, Illinois,” December 31, 1998

Army Audit Agency Report No. 99-26, “Lessons Learned - Chemical Stockpile Disposal
Project; Aberdeen Proving Ground, Maryland,” November 9, 1998

Army Audit Agency Report No. 97-190, “Non-Stockpile Chemical Material Project;
Aberdeen Proving Ground, Maryland,” May 12, 1997

Army Audit Agency Report No. 97-42, “Johnston Atoll Chemical Agent Disposal
System,” November 21, 1996




                                     21
Appendix C. Management Roles Within the Chemical
            Demilitarization Program
   This section describes the management roles of key Army officials within the
   Demilitarization Program. The DoD established the Demilitarization Program to support
   the Assistant Secretary of the Army for Installations and Environment in destroying all
   chemical warfare-related materiel while ensuring maximum protection of the public,
   personnel involved in the destruction effort, and the environment. In February 2003, the
   Army provisionally restructured the key offices that manage the Demilitarization
   Program and will define the specific duties for each office not later than October 2003.
   Key officials within the Demilitarization Program include:

   Director, Chemical Materials Agency. Section 1521, title 50, United States Code,
   “Destruction of Existing Stockpile of Lethal Chemical Agents and Munitions,” (Public
   Law 99-145) designates the Army as the lead agent for the complete destruction of the
   chemical weapons stockpile and related non-stockpile materiel. As a result, the Army
   designated the Program Manager for Chemical Demilitarization as the principal manager
   responsible for preparing and updating the overall planning and budgeting details
   necessary to execute the operation of destroying the chemical weapons. Under the
   restructured program, the Army reassigned those responsibilities to the Director,
   Chemical Materials Agency. For program acquisition related program issues, the
   Director reports to Assistant Secretary of the Army (Acquisition, Logistics, and
   Technology), who, in turn, reports to the Under Secretary of Defense (AT&L). For
   disposal facility operations and emergency preparedness related issues, the Director
   reports to the Commanding General, Army Materiel Command.

   Program Manager for the Elimination of Chemical Weapons. Under the
   Demilitarization Program’s restructured management, the Army established the Program
   Manager for the Elimination of Chemical Weapons to oversee the development and test
   and evaluation of the chemical disposal facilities. The Program Manager for the
   Elimination of Chemical Weapons reports to the Director, Chemical Materials Agency.

   Deputy Director for Plant Operations, Office of the Director, Chemical Materials
   Agency. The Army established the Deputy Director for Plant Operations to manage the
   chemical warfare materiel storage, the day-to-day operations of the chemical disposal
   facilities once they become operational, and to oversee the execution of the emergency
   preparedness program. The Deputy for Plant Operations reports to the Director,
   Chemical Materials Agency.

   Project Manager for Chemical Stockpile Disposal. The Project Manager for Chemical
   Stockpile Disposal is responsible for constructing and systemizing chemical disposal
   facilities for the stockpiles of unitary munitions with chemical agents at five locations.
   During those phases, the Project Manager reports to the Program Manager for the
   Elimination of Chemical Weapons. Upon successful construction and systemization of
   each chemical disposal facility, stockpile destruction responsibility for those sites
   transfers to the Deputy for Plant Operations, Office of the Director, Chemical Materials
   Agency. Accordingly, the Project Manager reports on those matters to the Deputy
   Director for Plant Operations.


                                           22
Product Manager for Non-Stockpile Chemical Materiel. The Product Manager for
Non-Stockpile Chemical Materiel is responsible for destroying all non-stockpile chemical
materiel or chemical warfare materiel that is not part of the unitary stockpile. The
non-stockpile chemical materiel mission includes binary chemical weapons, former
chemical weapon production facilities, recovered chemical warfare materiel, and
miscellaneous chemical warfare materiel. The Product Manager for Non-Stockpile
Chemical Materiel reports to the Program Manager for the Elimination of Chemical
Weapons.

Project Manager for Alternative Technologies and Approaches. Public Law 102-484
requires the Army to establish the position of Project Manager for Alternative
Technologies and Approaches to examine alternative technologies for demilitarizing
chemical weapons at two bulk facilities, if alternative operations can be completed within
the baseline schedule, and if alternative operations are significantly safer and is equal to
or more cost-effective than the approved baseline incineration process. The Project
Manager for Alternative Technologies and Approaches reports to the Program Manager
for the Elimination of Chemical Weapons.

Project Manager for Chemical Stockpile Emergency Preparedness. Public
Law 99-145 requires the Chemical Stockpile Emergency Preparedness Project to ensure
that the population surrounding the chemical storage facilities receives maximum
protection. The Deputy for Plant Operations, Office of the Director, Chemical Materials
Agency oversees the efforts of the Project Manager for Chemical Stockpile Emergency
Preparedness. The “Strom Thurmond National Defense Authorization Act for Fiscal
Year 1999” (Public Law 105-261), directs the Army to take responsibility for on-post
emergency preparedness and the Federal Emergency Management Agency to take
responsibility for off-post emergency preparedness. As a result, the Army established a
memorandum of understanding with the Federal Emergency Management Agency to
ensure that the Agency provided local municipalities with funding for the planned
emergency preparedness.

Program Manager for Assembled Chemical Weapons Assessment. In 1996, in
response to direction from Congress, the Office of the Secretary of Defense established
the Program Manager for Assembled Chemical Weapons Assessment. The Congress
directed that a program manager other than the Program Manager for Chemical
Demilitarization identify and demonstrate at least two alternative technologies for
destroying assembled chemical weapons. The Program Manager for Assembled
Chemical Weapons Assessment has the responsibility for identifying and demonstrating
the alternative technologies, and provides reports on program status directly to the Under
Secretary of Defense (AT&L).




                                         23
Appendix D. Environmental Restoration
            Programs for Chemical Warfare
            Materiel Burial Sites
    The paragraphs that follow describe the Non-Stockpile Chemical Materiel
    Product and the DoD Environmental Restoration Programs.

Non-Stockpile Chemical Materiel
    The Non-Stockpile Chemical Materiel Product is divided into five categories:
    binary chemical weapons, recovered chemical warfare materiel, buried chemical
    warfare materiel, former chemical weapons production facilities, and
    miscellaneous chemical warfare materiel. Most of the known chemical warfare
    materiel classified as non-stockpile, the U.S. has declared and is subject to the
    destruction requirements established under the provisions of the Chemical
    Weapons Convention. The warfare materiel that is not required for destruction
    under the Convention includes empty ton containers, recovered chemical agent
    identification sets, and buried chemical warfare materiel. Any time the Army
    recovers buried chemical warfare materiel, it must first be assessed to determine
    whether it meets the definition and criteria for a chemical weapon. If the
    recovered chemical warfare materiel meets the definition and criteria under the
    Convention, it will be declared and destroyed under the appropriate treaty
    verification regime.

Environmental Restoration Programs
    Public Law 102-484 directs the Army to plan for the remediation of buried
    chemical warfare materiel sites that are a significant environmental concern to the
    public. To address this challenge, the DoD formally established the Defense
    Environmental Restoration Program in 1986 to provide for the cleanup of DoD
    hazardous waste sites. The DoD budgets about $3 billion annually to accomplish
    the program objectives. As with other DoD functions that require the handling of
    chemical warfare materiel, the Congress established the Army, as Executive
    Agent. The U.S. Army Environmental Center and the U.S. Army Corps of
    Engineers were tasked with overseeing the established environmental restoration
    programs that protect human health and the environment, clean up contaminated
    sites as quickly as resources permit, and to expedite cleanup to facilitate disposal
    of excess DoD properties for local reuse.

    Service Installation Restoration Programs. Each of the Services has
    established Installation Restoration Programs to comply with the Defense
    Environmental Restoration Program. The mission of the Service programs is to
    identify, investigate, and clean up contamination at active and operating Service
    installations. Each installation commander has the overall responsibility for their
    sites, and coordinates the program execution, guidance, planning, oversight, and
    reporting of environmental cleanup with their respective environmental centers.
    The Army Environmental Center, the Naval Facilities Engineering Command, the
                                         24
Air Force Center for Environmental Excellence, and the Defense Logistics
Agency assist the installation commanders with planning for the remediation of
sites where buried chemical warfare materiel has been identified. Within the
Army, the U.S. Army Corps of Engineers is responsible for coordinating with the
installation commanders, the excavation of the buried materiel from active sites.

The Product Manager for Non-Stockpile Chemical Materiel plans to perform
program disposal tasks under service agreements with DoD activities and
installations and expects reimbursement for the disposal of recovered chemical
warfare materiel. The DoD has not identified the processes that will be used for
reimbursement. Through April 2003, the Office of the Deputy Under Secretary of
Defense (Installations and Environment) has not received tasking to prepare a
comprehensive life-cycle cost estimate that identifies the requirements for the
remediation of known or potential burial sites located on active Service
installations.

Formerly Used Defense Sites Program. In September 2001, through the
updated Defense Environmental Restoration Program Guidance, the Deputy
Under Secretary of Defense (Installations and Environment) emphasized the need
for the DoD to assess whether the formerly used defense sites contain buried
chemical warfare materiel. As a part of that assessment, the DoD was to include
an estimate of costs to complete recovery and disposal of the identified materiel.
In January 2002, the Deputy Assistant Secretary of the Army (Environment
Safety and Occupational Health) tasked the U.S. Army Corps of Engineers with
initiating and completing a plan to accelerate the schedule for the recovery of
chemical warfare materiel at the sites by the end of FY 2004. The Corps of
Engineers assigned this task to its Huntsville Engineering and Support Center and
directed the center to provide periodic reporting on the plan’s implementation.
The Product Manager for Non-Stockpile Chemical Materiel is responsible for the
storage, transportation, and destruction of the chemical warfare materiel once it is
recovered from the sites.

Base Realignment and Closure Program. The Base Realignment and Closure
Program is responsible for environmental restoration at all installations closed
under the Base Realignment and Closure Act. Army Regulation 200-1,
“Environmental Protection and Enhancement,” February 21, 1997, assigns the
U.S. Army Environmental Center as program manager for the remediation of
chemical warfare materiel at all closure sites. Further, the Regulation states that
the U.S. Army Corps of Engineers is responsible for the excavation of the
chemical warfare materiel. The Product Manager for Non-Stockpile Chemical
Materiel is responsible for disposal of the recovered chemical warfare materiel.

Use of Chemical Stockpile Disposal Facilities. The Assistant Secretary of the
Army (Installations and Environment) recently expressed an interest in four
chemical warfare materiel burial sites at installations scheduled for closure
because of their co-location with existing or planned chemical stockpile disposal
facilities. The four sites are the Newport Chemical Depot, Indiana; Umatilla
Chemical Depot, Oregon; Pueblo Chemical Depot, Colorado; and, the Deseret
Chemical Depot, Utah. The Product Manager for Non-Stockpile Chemical
Materiel is evaluating the possibility of using the chemical stockpile disposal
facilities for destruction of the chemical warfare materiel recovered from the four
burial sites.
                                     25
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
     Programs)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director (Program Analysis and Evaluation)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Director, Chemical Materials Agency
       Program Manager, Elimination of Chemical Weapons
Assistant Secretary of the Army (Installations and Environment)
Commander, Army Materiel Command
  Commander, U.S. Army Soldier Biological and Chemical Command
Auditor General, Department of the Army
Commander, Army Test and Evaluation Center

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Department of the Army Comments




                    29
30
31
32
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel in the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
John E. Meling
Rodney D. Britt
Melinda M. Oleksa
Chrispian M. Brake
Shaun B. Jeffery
Jacqueline N. Pugh
